TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Fiscal Year 2009 Statutory Audit of
                     Compliance With Legal Guidelines
                 Prohibiting the Use of Illegal Tax Protester
                          and Similar Designations



                                        May 28, 2009

                           Reference Number: 2009-40-078




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  May 28, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT
                DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2009 Statutory Audit of Compliance
                               With Legal Guidelines Prohibiting the Use of Illegal Tax Protester and
                               Similar Designations (Audit # 200840036)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) complied with the IRS Restructuring and Reform Act of 1998 (RRA 98) 1 Section (§) 3707
 and its own internal guidelines that prohibit IRS officers and employees from referring to
 taxpayers as Illegal Tax Protesters or any similar designations. The Treasury Inspector General
 for Tax Administration is required under Internal Revenue Code § 7803(d)(1)(A)(v) to annually
 evaluate the IRS’ compliance with the provisions of RRA 98 § 3707.

 Impact on the Taxpayer
 Congress enacted RRA 98 § 3707 to prohibit the IRS from labeling taxpayers as Illegal Tax
 Protesters or any similar designations. Overall, the IRS has eliminated most uses of this and
 similar designations. However, in some instances, IRS employees did refer to taxpayers by these
 designations in case narratives, which could stigmatize taxpayers and cause employee bias in
 future contacts with these taxpayers.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



Synopsis
Prior to enactment of the RRA 98, taxpayers could be designated as Illegal Tax Protesters if their
tax returns or correspondence contained specific indicators of noncompliance with the tax law,
such as the use of arguments that had been repeatedly rejected by the courts. Once taxpayers’
accounts were coded with Illegal Tax Protester indicators, certain tax enforcement actions were
accelerated. The designation was also intended to alert employees to be cautious so they would
not be drawn into confrontations with taxpayers. The RRA 98 prohibits the IRS from using
Illegal Tax Protester or any similar designations.
The IRS has not reintroduced past Illegal Tax Protester codes on the Master File, 2 and formerly
coded taxpayer accounts have not been assigned similar Master File designations. In addition,
the Internal Revenue Manual 3 and current publications do not have any Illegal Tax Protester
references. However, there were some designations
identified in the case narratives. In 324 instances out of           In some instances, IRS
approximately 65.3 million records and cases, IRS              employees referred to taxpayers
employees improperly referred to taxpayers as Illegal Tax      as Illegal Tax Protesters or used
                                                                 similar designations in case
Protesters or other similar designations.                                  narratives.
IRS management disagrees that employee use of Illegal
Tax Protester or similar designations in a case narrative is
a potential violation of the law. We continue to believe that the use of these designations in case
narratives may stigmatize taxpayers and cause employee bias in future contacts with these
taxpayers. Electronic case narratives are available to other IRS employees for future reference
and may affect the opinions and actions of employees working the taxpayers’ cases.
Notwithstanding their disagreement with our interpretation of the law, IRS management advised
us they have taken a conservative approach by implementing a policy that prohibits employees
from using Illegal Tax Protester or any similar designation. In August 2007, IRS management
issued a memorandum to all employees reminding them of this policy. In Fiscal Year 2008,
guidance in the form of Alerts and memorandums were issued to employees and portions of the
Internal Revenue Manual were updated to reflect the prohibition on using Illegal Tax Protester or
any similar designation. Through IRS management’s continued efforts, the total number of
improper designations by IRS employees has decreased.




2
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
3
  A manual containing the IRS’ internal guidelines.
                                                                                                                       2
                 Fiscal Year 2009 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                         Designations



Response
We made no recommendations in this report. In their response to a draft of this report, IRS
management stated there are no indications that the use of Illegal Tax Protester or similar
designation has affected the way in which the IRS deals with taxpayers who disapprove of the
tax system. Because these taxpayers are treated in the same manner and given the same rights as
any other taxpayer, the IRS does not believe that the rights of the taxpayers related to the
324 instances we identified were affected. Management’s complete response to the draft report
is included as Appendix V.

Office of Audit Comment
We continue to believe our outcome measure is valid because the use of Illegal Tax Protester or
similar designations may stigmatize taxpayers and cause employee bias in future contacts with
these taxpayers.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant Inspector
General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.




                                                                                                  3
                       Fiscal Year 2009 Statutory Audit of Compliance With Legal
                    Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                               Designations




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Illegal Tax Protester Codes Were Not Used on the Master File...................Page 3
          Internal Revenue Service Publications Do Not Contain Illegal
          Tax Protester References ..............................................................................Page 3
          Illegal Tax Protester References Have Been Removed From the
          Internal Revenue Manual..............................................................................Page 4
          In Some Instances, Employees Used Illegal Tax Protester or
          Similar Designations in Case Narratives ......................................................Page 5
          Alternative Methods That Avoid the Need for Illegal Tax Protester
          Designations Have Been Established to Address Tax Compliance
          Issues.............................................................................................................Page 8

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 9
          Appendix II – Major Contributors to This Report ........................................Page 12
          Appendix III – Report Distribution List .......................................................Page 13
          Appendix IV – Outcome Measure ................................................................Page 14
          Appendix V – Management’s Response to the Draft Report .......................Page 16
            Fiscal Year 2009 Statutory Audit of Compliance With Legal
         Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                    Designations




                          Abbreviations

IRS                 Internal Revenue Service
RRA 98              Restructuring and Reform Act of 1998
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations




                                             Background

Internal Revenue Service (IRS) Restructuring and Reform Act of 1998 (RRA 98) 1
Section (§) 3707 prohibits the IRS from using Illegal Tax Protester or any similar designations.
In addition, the law requires the removal of all existing Illegal Tax Protester codes from the
Master File 2 and instructs IRS employees to disregard any such designation not located on the
Individual Master File. 3
Prior to enactment of the RRA 98, the IRS used the Illegal Tax Protester Program to identify
individuals and businesses that were using methods that were not legally valid to protest the tax
laws. Employees identified taxpayers for referral to the Program when their tax returns or
correspondence contained specific indicators of noncompliance with the tax law, such as the use
of arguments that had been repeatedly rejected by the courts. There were tax protester
coordinators who were responsible for determining whether a taxpayer should be included in the
Illegal Tax Protester Program. If a taxpayer was classified as an Illegal Tax Protester, the
taxpayer’s record was coded as such on the Master File. Once a taxpayer’s account was coded,
certain tax enforcement actions were accelerated. The designation was also intended to alert
employees to be cautious so they would not be drawn into confrontations with taxpayers.
Congress was concerned that some taxpayers were being permanently labeled and stigmatized by
the Illegal Tax Protester designation. The concern was that this label could bias IRS employees
and result in unfair treatment of the taxpayer.
Internal Revenue Code § 7803(d)(1)(A)(v)
requires the Treasury Inspector General for Tax                        The Treasury Inspector General
Administration to annually evaluate IRS compliance                        for Tax Administration is
with the prohibition against using the Illegal Tax                      required to annually evaluate
Protester or any similar designations. This is our                        IRS compliance with the
eleventh review since Fiscal Year 1999. These                          prohibition against using Illegal
                                                                         Tax Protester or any similar
reviews have identified areas for improvement to help                           designations.
the IRS comply with the Illegal Tax Protester
designation prohibition.
This review was performed in the Criminal Investigation Division, the Office of the
National Taxpayer Advocate, and the Office of Appeals in Washington, D.C.; the Small

1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
3
  A database that maintains transactions or records of individual tax accounts.
                                                                                                             Page 1
                 Fiscal Year 2009 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                         Designations



Business/Self-Employed Division in New Carrollton, Maryland; and the Wage and Investment
Division in Atlanta, Georgia, during the period July 2008 through February 2009. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. However, due to concerns with providing us
access to sensitive grand jury information, the IRS provided us with an extract of manually
edited Criminal Investigation Division cases from the Criminal Investigation Management
Information System. While our audit results seem reasonable based on prior experience with this
database, we were not able to validate any of the information due to IRS editing of the data. We
are required by generally accepted government auditing standards to disclose this limitation in
the scope of our work. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                  Fiscal Year 2009 Statutory Audit of Compliance With Legal
               Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                          Designations




                                 Results of Review

Illegal Tax Protester Codes Were Not Used on the Master File
Prior to enactment of the RRA 98, the IRS used Illegal Tax Protester indicators on the Master
File to accelerate collection activity for taxpayers who were delinquent in filing tax returns or
paying their taxes. These indicators were also intended to alert employees that there might be
problems encountered when dealing with nonfilers and delinquent taxpayers.
Congress was concerned about the use of the Illegal Tax Protester designation because:
   •   Taxpayers were labeled as Illegal Tax Protesters without regard to their filing obligations
       or compliance.
   •   Illegal Tax Protester indicators were not always reversed when taxpayers became
       compliant with their tax obligations.
RRA 98 § 3707 required the IRS to remove the existing Illegal Tax Protester designations from
taxpayers’ accounts on the Master File beginning January 1, 1999.
In prior reviews, we reported the IRS had removed these designation codes from the Master File
as required by the law. Based on our analysis of approximately 1.2 million taxpayer records that
had been coded for accelerated collection activity, the IRS has not reintroduced Illegal Tax
Protester codes on the Master File. The law also prohibits using any designation similar to
Illegal Tax Protester. We matched approximately 57,000 taxpayer accounts formerly coded as
Illegal Tax Protesters to the Master File and confirmed that the IRS had not input any other type
of similar designation on these accounts.

Internal Revenue Service Publications Do Not Contain Illegal Tax
Protester References
To help promote compliance with RRA 98
§ 3707, IRS management issued directives
for employees to update various
publications to eliminate references to
Illegal Tax Protester terminology and
programs. Our reviews prior to
Fiscal Year 2002 identified several
publications that contained Illegal Tax
Protester references. When notified of the

                                                                                             Page 3
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



problem, the IRS had either revised the publications or labeled them as being obsolete. Our
review of available publications on the Servicewide Electronic Research Program, 4 IRS public
Internet web site (IRS.gov), Electronic Publishing web site, and 2008 Federal Tax Products DVD
did not identify any current Illegal Tax Protester references. By eliminating these references
from its forms, documents, letters, and training materials, the IRS avoids the implication that the
use of this terminology is permissible.

Illegal Tax Protester References Have Been Removed From the
Internal Revenue Manual
In 9 of our 10 prior reviews, we identified
Illegal Tax Protester references in various
formats of the Internal Revenue Manual. 5 The
Official Internal Revenue Manual is
maintained on the Electronic Publishing web
site. However, it is also found electronically
on the Internal Revenue Manual online, the
Servicewide Electronic Research Program,
IRS.gov, and the Internal Revenue Manual
CD-ROM, as well as in paper format. The
graphic to the right shows the relationship
between the Official Internal Revenue Manual
and the various formats available to IRS
employees.
During our Fiscal Year 2009 review, we again
verified that no Illegal Tax Protester references
existed in the Internal Revenue Manual. By
removing all Illegal Tax Protester references
from the Internal Revenue Manual, the IRS
avoids any inappropriate implication to
taxpayers for whom these designations are being
used.




4
  An electronic researching tool containing many former paper research applications (e.g., publications, the Internal
Revenue Manual, the Probe and Response Guide).
5
  A manual containing the IRS’ internal guidelines.
                                                                                                              Page 4
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



In Some Instances, Employees Used Illegal Tax Protester or Similar
Designations in Case Narratives
We found that, out of approximately 65.3 million records and cases, there were 324 instances in
which employees had labeled taxpayers as “Tax Protester,” “Illegal Tax Protester,”
“Constitutionally Challenged,” or other similar designations in case narratives on the following
computer systems during the period of October 2007 through September 2008.
    •   Appeals Centralized Database System: 6 A review of approximately 2.6 million
        opened/closed Appeals function narrative comment records identified 48 cases in which
        41 employees used Illegal Tax Protester or a similar designation when referring to
        specific taxpayers in the case narratives.
    •   Automated Collection System: 7 A review of approximately 3 million open cases
        identified 3 cases in which 3 employees used Illegal Tax Protester or a similar
        designation when referring to specific taxpayers in the case narratives.
    •   Criminal Investigation Management Information System: 8 A review of approximately
        6,600 opened/closed cases identified 4 cases in which 4 employees used a similar
        designation when referring to specific taxpayers in the case narratives.
    •   Desktop Integration: 9 A review of approximately 59 million records identified 94 cases
        in which 77 employees used Illegal Tax Protester or a similar designation when referring
        to specific taxpayers in the case narratives.
    •   Integrated Collection System: 10 A review of approximately 519,000 open cases
        identified 168 cases in which 131 employees used Illegal Tax Protester or a similar
        designation when referring to specific taxpayers in the case narratives.
    •   Taxpayer Advocate Management Information System: 11 A review of approximately
        68,000 open cases identified 3 cases in which 3 employees used Illegal Tax Protester or a
        similar designation when referring to specific taxpayers in the case narratives.



6
  A computerized system used to track case receipts, record case time, document case actions, and monitor the
progress of Appeals function workload.
7
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
8
  A computerized system used to track the status and progress of criminal investigations.
9
  Provides employees access to multiple IRS systems through their computers and allows for inventory management,
case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and electronic
referral generation. Desktop Integration was renamed Account Management Services in February 2009.
10
   A system used by Collection function employees to report taxpayer case time and activity.
11
   An electronic database and inventory control system used by Taxpayer Advocate Service employees.
                                                                                                         Page 5
                  Fiscal Year 2009 Statutory Audit of Compliance With Legal
               Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                          Designations



responded with “protester jargon”). We agree with the IRS that merely making references to a
taxpayer’s actions does not constitute a designation prohibited by statute. However, we are
concerned these references could become, or be considered, permanent labels that could
subsequently stigmatize taxpayers in future contacts with the IRS. We did not include any
instances in which employees were only documenting statements made by a taxpayer and/or his
or her representative because quoting a taxpayer’s self-designation as an Illegal Tax Protester is
not prohibited by the law.
The statute states that officers and employees of the IRS shall not designate taxpayers as Illegal
Tax Protesters or any similar designations. It further specifies that existing designations in the
Master File must be removed and any other designations made before the effective date of the
statute, such as those on paper records that have been archived, must be disregarded. Senate
Committee on Finance Report 105-174 (dated April 22, 1998), related to the RRA 98 § 3707
provision, stated the Committee was concerned that taxpayers might be stigmatized by a
designation as an “Illegal Tax Protester.” Based upon the language of the statute and the Senate
Committee Report, we believe IRS officers and employees should not label taxpayers as Illegal
Tax Protesters or similar designations in any records, which include paper and electronic case
files. Officers and employees should not designate taxpayers as such because a designation
alone contains a negative connotation and appears to label the taxpayer.
IRS management disagrees that employee use of Illegal Tax Protester or similar designations in a
case narrative is a potential violation of the law. We continue to believe that the use of these
designations in case narratives may stigmatize taxpayers and cause employee bias in future
contacts with these taxpayers. Electronic case narratives are available to other IRS employees
for future reference and may affect the opinions and actions of employees working the taxpayers’
cases.
Even though IRS management continues to disagree with our interpretation of the law, they have
taken a conservative approach by implementing a policy that prohibits employees from using
Illegal Tax Protester or any similar designation. In August 2007, IRS management issued a
memorandum to all employees reminding them of this policy. In Fiscal Year 2008, guidance in
the form of Alerts and memorandums were issued to employees and portions of the Internal
Revenue Manual were updated to reflect the prohibition on using Illegal Tax Protester or any
similar designation. Through IRS management’s continued efforts, the total number of improper
designations by IRS employees has decreased.




                                                                                            Page 7
                 Fiscal Year 2009 Statutory Audit of Compliance With Legal
              Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                         Designations



Alternative Methods That Avoid the Need for Illegal Tax Protester
Designations Have Been Established to Address Tax Compliance
Issues
IRS tax compliance operations have not been significantly affected by the prohibition against
using Illegal Tax Protester or similar designations because alternative programs exist to address
issues previously handled by the Illegal Tax Protester Program. These include:
   •   The Frivolous Return Program that handles taxpayers who file tax returns based on some
       type of frivolous argument that justifies payment of little or no income tax. This includes
       filing a tax return claiming no income because paying taxes is voluntary or claiming to be
       a citizen of a State but not a citizen of the United States.
   •   The Nonfiler Program that handles taxpayers who fail to file their required tax returns.
   •   The Potentially Dangerous Taxpayer/Caution Upon Contact Program that handles
       taxpayers who have assaulted and/or threatened IRS employees.
Each of these programs is set up to address various issues IRS employees may encounter when
dealing with taxpayers protesting the legality of paying their income taxes. Unlike the former
Illegal Tax Protester Program, each program addresses a specific taxpayer behavior. In addition,
taxpayers are not assigned to these individual programs on a permanent basis, as was the case in
the Illegal Tax Protester Program.
None of our prior reviews have identified instances in which the Illegal Tax Protester indicator
was needed on a taxpayer’s account to either accelerate tax enforcement actions and/or alert IRS
employees to be cautious when dealing with the taxpayer. As a result, we believe that
prohibiting the use of the Illegal Tax Protester designation has had no negative impact on
collection or examination activities.
Management’s Response: We made no recommendations in this report. However, IRS
management stated there are no indications that the use of Illegal Tax Protester or similar
designation has affected the way in which the IRS deals with taxpayers who disapprove of the
tax system. Because these taxpayers are treated in the same manner and given the same rights as
any other taxpayer, the IRS does not concur with our outcome measure described in
Appendix IV.
Office of Audit Comment: We continue to believe our outcome measure is valid because
the use of Illegal Tax Protester or similar designations may stigmatize taxpayers and cause
employee bias in future contacts with these taxpayers. Electronic case narratives are available to
other IRS employees for future reference and may affect the opinions and actions of employees
working the taxpayers’ cases.



                                                                                            Page 8
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The objective of this review was to determine whether the IRS complied with RRA 98 1 § 3707
and its own internal guidelines that prohibit IRS officers and employees from referring to
taxpayers as Illegal Tax Protesters or any similar designations. The Treasury Inspector General
for Tax Administration is required to annually evaluate compliance with the prohibition against
using Illegal Tax Protester or any similar designations. 2 Unless otherwise noted, our limited
tests of the reliability of data obtained from various IRS systems did not identify any errors. We
tested the reliability of the data by scanning the data received for blank, incomplete, illogical, or
improper data. In addition, we traced a judgmental sample for each data set to the source IRS
files to ensure accuracy. We did not perform any testing of internal controls over the systems
that were the sources of our data. To accomplish the objective, we:
I.       Determined if the Illegal Tax Protester coding on the Master File 3 was removed by
         reviewing all tax accounts coded for accelerated collection activity as of September 2008
         on the Business Master File 4 and Individual Master File. 5 We analyzed 1,217,048 Master
         File records that had been coded for accelerated collection activity.
         We also matched our historic computer extract of approximately 57,000 taxpayers
         designated as Illegal Tax Protesters before the RRA 98 was enacted to our records that
         had been coded for accelerated collection activity to determine if any new common codes
         were being used to classify the taxpayers as Illegal Tax Protesters.
II.      Determined if the Internal Revenue Manual 6 contained Illegal Tax Protester or any
         similar designations by performing key word searches of the IRS Electronic Publishing
         web site, the Internal Revenue Manual online, the Servicewide Electronic Research
         Program, 7 IRS.gov, and the Internal Revenue Manual CD-ROM.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  Internal Revenue Code § 7803(d)(1)(A)(v).
3
  A database that stores various types of taxpayer account information. This database includes individual, business,
and employee plans and exempt organizations data.
4
  A database that consists of Federal tax-related transactions and accounts for businesses. These include
employment taxes, income taxes on businesses, and excise taxes.
5
  A database that maintains transactions or records of individual tax accounts.
6
  A manual containing the IRS’ internal guidelines.
7
  An electronic researching tool containing many former paper research applications (e.g., publications, the Internal
Revenue Manual, the Probe and Response Guide).
                                                                                                              Page 9
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



III.    Determined if IRS publications contained Illegal Tax Protester or any similar
        designations by performing key word searches of the Servicewide Electronic Research
        Program, IRS.gov, and the IRS Electronic Publishing web site in August 2008, and the
        IRS 2008 Federal Tax Products DVD in February 2009.
IV.     Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Integrated Collection System 8 by securing a copy
        of the database and analyzing 519,327 cases open as of September 2008 with history
        action dates between October 2007 and September 2008.
V.      Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Automated Collection System 9 by securing a copy
        of the database 10 and analyzing 2,981,246 cases open as of September 2008 with history
        action dates between October 2007 and September 2008.
VI.     Determined if employees were using Illegal Tax Protester or any similar designations
        within taxpayer case narratives on the Taxpayer Advocate Management Information
        System 11 by securing a copy of the database as of September 2008 and analyzing
        67,593 open cases with activity between October 2007 and September 2008.
VII.    Determined if employees were using Illegal Tax Protester or any similar designations
        within the taxpayer case narratives on Desktop Integration 12 by securing a copy of the
        database as of September 2008 and analyzing 59,049,776 records with activity between
        October 2007 and September 2008.
VIII.   Determined if employees were using the Illegal Tax Protester or any similar
        designations within taxpayer case narratives on the Appeals Centralized Database
        System 13 by securing a copy of the database as of September 2008 and analyzing
        2,593,038 open/closed Appeals function narrative comment records with activity between
        October 2007 and September 2008.




8
  A system used by Collection function employees to report taxpayer case time and activity.
9
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
10
   The Automated Collection System did not always contain employee identifying information from which we could
determine the number of employees using Illegal Tax Protester or a similar designation. We assumed each comment
was made by a different employee.
11
   An electronic database and inventory control system used by Taxpayer Advocate Service employees.
12
   Provides employees access to multiple IRS systems through their computers and allows for inventory
management, case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and
electronic referral generation. Desktop Integration was renamed Account Management Services in February 2009.
13
   A computerized system used to track case receipts, record case time, document case actions, and monitor the
progress of Appeals function workload.
                                                                                                        Page 10
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



IX.      Determined if employees were using Illegal Tax Protester or any similar designations
         within the taxpayer case narratives on the Criminal Investigation Management
         Information System 14 by analyzing 6,641 Criminal Investigation Division cases opened
         and/or closed between October 2007 and September 2008.
         Due to concerns with providing us access to sensitive grand jury information, the IRS
         provided us with an extract of manually edited Criminal Investigation Division cases
         from the Criminal Investigation Management Information System. While our audit
         results seem reasonable based on prior experience with this database, we were not able to
         validate any of the information due to IRS editing of the data. We are required by
         generally accepted government auditing standards to disclose this limitation in the scope
         of our work.
X.       Determined if the IRS is using any Frivolous Return Program 15 codes as replacements for
         Illegal Tax Protester designations by reviewing guidance provided for the Frivolous
         Return Program and interviewing its Program Coordinator.
XI.      Determined if the IRS Nonfiler Program 16 is in compliance with the provisions
         established by RRA 98 § 3707(b) by reviewing guidance provided for the Nonfiler
         Program and interviewing its Program Coordinator.
XII.     Determined if there is any relationship between Illegal Tax Protester designations and
         Potentially Dangerous Taxpayer/Caution Upon Contact indicator use on the Master File
         by reviewing guidance provided for the Potentially Dangerous Taxpayer/Caution Upon
         Contact Program 17 and interviewing its Program Coordinator.
XIII.    Determined if employees were using Illegal Tax Protester or any similar designations
         within the Activity Code field on the Taxpayer Information File 18 by securing a copy of
         the database and analyzing 97,692 open records with activity between October 2007 and
         September 2008.




14
   A computerized system used to track the status and progress of criminal investigations.
15
   The Frivolous Return Program handles taxpayers who file tax returns based on some type of frivolous argument
that justifies payment of little or no income tax. This would include filing a tax return claiming no income because
paying taxes is voluntary or claiming to be a citizen of a State but not a citizen of the United States.
16
   The Nonfiler Program handles taxpayers who fail to file their required tax returns.
17
   The Potentially Dangerous Taxpayer/Caution Upon Contact Program handles taxpayers who have assaulted
and/or threatened IRS employees.
18
   Provides tax account information for taxpayers selected for the Integrated Data Retrieval System (the IRS
computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records).
                                                                                                            Page 11
                Fiscal Year 2009 Statutory Audit of Compliance With Legal
             Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                        Designations



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Audit Director
Bryce Kisler, Audit Manager
Alan Lund, Acting Audit Manager
David Hartman, Lead Auditor
Cynthia Dozier, Senior Auditor
Craig Pelletier, Senior Auditor
Sharon Summers, Senior Auditor
Rebecca Kaplan, Auditor
James Allen, Information Technology Specialist




                                                                                      Page 12
                Fiscal Year 2009 Statutory Audit of Compliance With Legal
             Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                        Designations



                                                                            Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Chief, Criminal Investigation SE:CI
Chief Counsel CC
National Taxpayer Advocate TA
Chief Technology Officer OS:CTO
Director, Office of Research, Analysis, and Statistics RAS
Director, Communications and Liaison, National Taxpayer Advocate TA:CL
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
   SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   GAO/TIGTA Liaison, Deputy Commissioner for Operations Support OS
   GAO/TIGTA Liaison, Deputy Commissioner for Services and Enforcement SE
   GAO/TIGTA Liaison, National Taxpayer Advocate TA
   GAO/TIGTA Liaison, Chief Technology Officer OS:CIO:SM:PO
   Chief, GAO/TIGTA/Legislative Implementation Branch SE:S:CLD:PSP:GTL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                    Page 13
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



                                                                                               Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective action will have on tax administration. While no recommendations were made in this
report, the Treasury Inspector General for Tax Administration has made prior recommendations
that continue to provide benefits. This benefit will be incorporated into our Semiannual Report
to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Actual; 321 taxpayers potentially affected 1 (see page 5).

Methodology Used to Measure the Reported Benefit:
We reviewed:
    •   From the Appeals Centralized Database System, 2 approximately 2.6 million open/closed
        Appeals function narrative comment records with history action dates between
        October 2007 and September 2008 and identified 48 taxpayer cases with narratives that
        contained Illegal Tax Protester or a similar designation.
    •   From the Automated Collection System, 3 approximately 3 million open cases with
        history action dates between October 2007 and September 2008 and identified 3 taxpayer
        cases with narratives that contained Illegal Tax Protester or a similar designation.
    •   From the Criminal Investigation Management Information System, 4 approximately
        6,600 cases opened and/or closed between October 2007 and September 2008 and
        identified 4 taxpayer cases with narratives that contained a similar designation.




1
  We identified 324 instances in which employees had labeled taxpayers as an Illegal Tax Protester or a similar
designation in a case narrative on an IRS computer system. Three of these taxpayers were labeled as an Illegal Tax
Protester or similar designation in a case narrative on more than one IRS computer system.
2
  A computerized system used to track case receipts, record case time, document case actions, and monitor the
progress of the Appeals function workload.
3
  A telephone contact system through which telephone assistors collect unpaid taxes and secure tax returns from
delinquent taxpayers who have not complied with previous notices.
4
  A computerized system used to track the status and progress of criminal investigations.
                                                                                                          Page 14
                    Fiscal Year 2009 Statutory Audit of Compliance With Legal
                 Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                                            Designations



    •   From Desktop Integration, 5 approximately 59 million records with history action dates
        between October 2007 and September 2008 and identified 94 taxpayer cases with
        narratives that contained Illegal Tax Protester or a similar designation.
    •   From the Integrated Collection System, 6 approximately 519,000 open cases with history
        action dates between October 2007 and September 2008 and identified 168 taxpayer
        cases with narratives that contained Illegal Tax Protester or a similar designation.
    •   From the Taxpayer Advocate Management Information System, 7 approximately
        68,000 open cases with history action dates between October 2007 and September 2008
        and identified 3 taxpayer cases with narratives that contained Illegal Tax Protester or a
        similar designation.
    •   From the Taxpayer Information File, 8 approximately 98,000 open records with history
        action dates between October 2007 and September 2008 and identified 4 taxpayer records
        that contained Illegal Tax Protester or a similar designation in the Activity Code field.




5
  Provides employees access to multiple IRS systems through their computers and allows for inventory management,
case delivery, history narratives, print-to-fax capabilities for sending information to taxpayers, and electronic
referral generation. Desktop Integration was renamed Account Management Services in February 2009.
6
  A system used by Collection function employees to report taxpayer case time and activity.
7
  An electronic database and inventory control system used by Taxpayer Advocate Service employees.
8
  Provides tax account information for taxpayers selected for the Integrated Data Retrieval System (the IRS
computer system capable of retrieving or updating stored information; it works in conjunction with a taxpayer’s
account records).
                                                                                                       Page 15
      Fiscal Year 2009 Statutory Audit of Compliance With Legal
   Guidelines Prohibiting the Use of Illegal Tax Protester and Similar
                              Designations



                                                         Appendix V

Management’s Response to the Draft Report




                                                               Page 16
